CERTIFICATE OF COMPLIANCE

Case No.
Caption: Andrews v. New Jersey

As required by Supreme Court Rule 33.1(h),
I certify that the document contains 7,745 words,
excluding the parts of the document that are
exempted by Supreme Court Rule 33.1(d).

I declare under penalty of perjury that the fore-
going is true and correct.

Executed on January 7, 2021

Nowiosute DX

Samantha Collins
Record Press, Inc.

Sworn to before me on

January 7, 2021

JASMINE WILLIAMS
Notary Public, State of New York
No. 01W16397949
Qualified in Queens County
Commission Expires September 16, 2023

de aioe

Notary Public
